U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 3, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Winston-Salem Industries for the Blind v. PDS Consultants, Inc., et al,
S.Ct No. 19-329

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 9,
2019, and placed on the docket on September 11, 2019. The government's response is due on
October 11, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 12, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0329
WINSTON-SALEM INDUSTRIES FOR THE BLIND
PDS CONSULTANTS, INC., ET AL.

JESSICA C. ABRAHAMS
DRKER BIDDLE & REATH LLP
1500 K STREET, NW
WASHINGTON, DC 20005
202-230-5371
REEVES ANDERSON
ARNOLD & PORTER KAYE SCHOLER LLP
370 SEVENTEENTH STREET
SUITE 4400
DENVER, CO 80202-1370
303-863-2325
REEVES.ANDERSON@ARNOLDPORTER.COM
THOMAS M. BONDY
ORRICK, HERR1NGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8406
TBONDY@ORRICK.COM
LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE. C
OM

CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 KSTREET,NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM
WESLEY E. WEEKS
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-7569
WWEEKS@WILEYREIN.COM

